a
I

Q@QCKLE

2311 Douglas Street Le ga l Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

UNITED STATES OF AMERICA ex rel.
STACEY L. JANSSEN, as Special Administrator of
the Estate of Megen Corin Duffy,

Petitioner,

Vv.
LAWRENCE MEMORIAL HOSPITAL,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 27th day of August, 2020, send out
from Omaha, NE 4 package(s) containing * copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
ANTHONY E. LACROIX ROBERT K. COLLINS
Counsel of Record COLLINS LAW OFFICE, LLC
LACROIX LAW FIRM, LLC P.O. Box 4786
1600 Genessee, Suite 956 Olathe, Kansas 66063
Kansas City, Missouri 64102
(816) 339-4380 SARAH A. BROWN
tony@lacroixlawke.com BROWN & CURRY, LLC
1600 Genessee, Suite 956

THEODORE J. LICKTEIG Kansas City, Missouri
LAW OFFICE OF 64102

THEODORE J. LICKTEIG
12760 W. 87th Street, Attorneys for Petitioner

Suite 112 -

Lenexa, Kansas 66215

Subscribed and sworn to before me this 27th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

erate] Kevee. 0. Linoo? Ondo. Ola

Notary Public Affiant 39977

My Comm. Exp. September 5, 2023,

 

 
SERVICE LIST FOR
U.S. ex rel JANSSEN as Special Administrator of the Estate of Megen Corin
Duffy v. LAWRENCE MEMORIAL HOSPITAL

Patrick A. McInerney

Spencer Fane, LLP

1000 Walnut Street, Suite 1400
Kansas City, Missouri 64016
816-474-3216
pmcinerney@spencerfane.com
(1 copy)

Andrew R. Ramirez

Kathryn Goldsmith Lee

Mark A. Cole

Spencer Fane, LLP

9401 Indian Creek Parkway, Suite 700
Overland Park, Kansas 66210
913-345-8100
aramirez@spencerfance.com
klee@spencerfane.com
mcole@spencerfane.com

(1 copy)

Andrew W. Lester

Spencer Fane LLP

9400 North Broadway Extension, Suite 600
Oklahoma City, Oklahoma 73114-7423
alester@spencerfane.com

(3 copies)

Attorneys for Defendant Lawrence
Memorial Hospital

Jon Fleenor
Jon.fleenor@usdoj.gov

Assistant United States Attorney
500 State Avenue, Suite 360
Kansas City, Kansas 66101
913-551-6730

(1 copy)

Attorney for the United States
of America
